                                     SOCIAL SECURITY
MEMORANDUM

Date:   December 21, 2011                                               Refer To:

To:     The Commissioner

From:   Inspector General

Subject: State Disability Determination Services’ Employee and Contractor Suitability Program
        (A-15-11-21180)


        The attached final report presents the results of our audit. Our objectives were to
        determine whether the Social Security Administration (1) had a policy in place to
        determine suitability of disability determination services’ employees and contractors;
        and (2) performed oversight reviews of the disability determination services’ suitability
        processes.

        If you wish to discuss the final report, please call me or have your staff contact
        Steven L. Schaeffer, Assistant Inspector General for Audit, at (410) 965-9700.




                                                  Patrick P. O’Carroll, Jr.

        Attachment
            OFFICE OF
     THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION


STATE DISABILITY DETERMINATION SERVICES’
       EMPLOYEES AND CONTRACTOR
          SUITABILITY PROGRAM


    December 2011        A-15-11-21180




 AUDIT REPORT
                                    Mission
By conducting independent and objective audits, evaluations and investigations,
we inspire public confidence in the integrity and security of SSA’s programs and
operations and protect them against fraud, waste and abuse. We provide timely,
useful and reliable information and advice to Administration officials, Congress
and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

    Conduct and supervise independent and objective audits and
       investigations relating to agency programs and operations.
      Promote economy, effectiveness, and efficiency within the agency.
      Prevent and detect fraud, waste, and abuse in agency programs and
       operations.
      Review and make recommendations regarding existing and proposed
       legislation and regulations relating to agency programs and operations.
      Keep the agency head and the Congress fully and currently informed of
       problems in agency programs and operations.

   To ensure objectivity, the IG Act empowers the IG with:

    Independence to determine what reviews to perform.
    Access to all information necessary for the reviews.
    Authority to publish findings and recommendations based on the reviews.

                                     Vision
We strive for continual improvement in SSA’s programs, operations and
management by proactively seeking new ways to prevent and deter fraud, waste
and abuse. We commit to integrity and excellence by supporting an environment
that provides a valuable public service while encouraging employee development
and retention and fostering diversity and innovation.
                                                    Executive Summary
OBJECTIVE
The objectives of our review were to determine whether the Social Security
Administration (1) had a policy in place to determine the suitability of disability
determination services’ (DDS) employees and contractors; and (2) performed oversight
reviews of the DDS’ suitability processes.

BACKGROUND
As part of legislation passed in 1954, Congress assigned the conditions for making
disability determinations to State Vocational Rehabilitation Agencies or other
appropriate State agencies. 1 The function of disability determinations has remained
with the States since this legislation was enacted. All 50 States, plus the District of
Columbia and Puerto Rico, have DDSs that determine initial and continuing eligibility of
disability claims with respect to the case’s medical aspects.

SSA has a responsibility to safeguard its records, data, systems, and personally
identifiable information (PII), thereby maintaining the public trust and protecting national
security interests. DDS security controls for access to claimant data on SSA and DDS
systems, as well as access to DDS facilities, must include personnel suitability
screening procedures. SSA expects that each DDS will maintain and administer an
effective suitability program. In October 2008, SSA enhanced its guidance to require
DDSs and the affected State parent agencies to conduct statewide criminal background
checks on all prospective full- or part-time employees and contractors, including medical
consultants. 2 Beyond the minimum requirements, States have broad discretion on the
composition, implementation, and administration of their DDS suitability programs.

RESULTS OF REVIEW
We reviewed the State policy for employees, contractors, and other individuals working
in the DDS for 14 States to determine whether they complied with SSA policy. We
identified some States that had not implemented a State policy until after the
October 2, 2008 effective date of SSA’s policy, as well as one State that had not
implemented a policy requiring criminal background checks on individuals working in the
DDS. During our review, we identified a number of vulnerable areas in SSA’s policy.
These areas subject the Agency to a greater risk of inappropriate access to its records,
data, and systems.



1
    Pub. L. No. 83-761, 68 Stat. 1052.
2
    POMS, DI 39567.260 Section C, DDS Suitability Program Guidance (10/02/2008).


State DDS’ Employee and Contractor Suitability Program (A-15-11-21180)                    i
CONCLUSION AND RECOMMENDATIONS
Although we found the Agency had a limited policy in place that required a statewide
criminal background check, we noted a number of vulnerabilities in the policy that could
pose risk to SSA’s data and systems. We found that State policy regarding suitability
determinations for employees, contractors, and other DDS staff varied widely from State
to State. We believe additional actions are necessary to strengthen the suitability
program for DDS employees, contractors, and other staff and ensure all individuals with
access to SSA’s records, both current and prospective, are suitable. We recommend
that SSA require all individuals with access to SSA systems and data to have an
appropriate suitability determination as of an established date. If an individual does not
have a determination by this established date, SSA should remove his/her access to
Agency systems and data.

AGENCY COMMENTS
SSA will take action to address all of our recommendations.




State DDS’ Employee and Contractor Suitability Program (A-15-11-21180)                  ii
                                                                         Table of Contents
                                                                                                                     Page

INTRODUCTION ..................................................................................................... 1

RESULTS OF REVIEW .......................................................................................... 4

Agency Policy .......................................................................................................... 4

    •    State Compliance with Agency Policy .......................................................... 4
    •    Suitability Documentation ............................................................................. 6

Vulnerabilities Identified in the Social Security Administration Policy ...................... 8

    •    Contractors ................................................................................................... 8
    •    Other Staff Besides Employees and Contractors Employed by
         Disability Determination Services ................................................................. 9
    •    Employees Transferred from Other State Agencies ..................................... 9
    •    Employees, Contractors, and Other Staff Not Subject to State-wide
         Criminal Background Checks ....................................................................... 9

Agency Oversight .................................................................................................. 11

    •    Regional Office Oversight ........................................................................... 12
    •    Central Office Oversight ............................................................................. 12

CONCLUSIONS AND RECOMMENDATIONS ..................................................... 13

APPENDICES

APPENDIX A – Acronyms
APPENDIX B – Scope and Methodology
APPENDIX C – Sampling Methodology
APPENDIX D – DDS Suitability Status
APPENDIX E – Agency Comments
APPENDIX F – OIG Contacts and Staff Acknowledgments




State DDS’ Employee and Contractor Suitability Program (A-15-11-21180)
                                                                            Introduction
OBJECTIVE
The objectives of our review were to determine whether the Social Security
Administration (SSA) (1) had a policy in place to determine suitability of disability
determination services’ (DDS) employees and contractors; and (2) performed oversight
reviews of the DDS’ suitability processes.

BACKGROUND
On September 1, 1954, President Eisenhower signed into law the Social Security Act
Amendments of 1954. 1 As part of the Amendments, the law set forth the conditions for
making disability determinations. The State Vocational Rehabilitation Agencies or other
appropriate State agencies, under agreements with the Secretary of Health, Education,
and Welfare, 2 would determine whether the individual was suffering from a disability and
when the disability began and ceased.

In June 1980, Congress passed additional legislation strengthening the disability
program. In passing the 1980 legislation, 3 Congress sought to ensure effective and
uniform administration of the disability programs nationwide by strengthening Federal
management of the State disability determination process. To this end, it abolished the
system of individual State agreements. It also required that the Secretary promulgate
regulations specifying performance standards and administrative requirements and
procedures States must follow in performing disability determinations. According to the
Agency, Federal regulations 4 limit the amount of guidance federal agencies can require
of DDS personnel selection. The regulations allow States to adhere to applicable State-
approved personnel standards in the selection, tenure, and compensation of any
individual employed in the disability program.




1
    Pub. L. No. 83-761, 68 Stat. 1052.
2
 Reorganization Plan No. 1 of 1953 established the Department of Health, Education, and Welfare. It
was then re-designated the Department of Health and Human Services by Pub. L. No. 96-88, § 509, 93
Stat. 695, effective May 4, 1980. Effective March 31, 1995, the SSA was established as an independent
agency by the Social Security Independence and Program Improvements Act of 1994, Pub. L. No. 103-
296, § 101, 108 Stat. 1464.
3
    Social Security Disability Amendments of 1980, Pub. L. No. 96-265, 94 Stat. 441.
4
    20 C.F.R. §§ 404.1621(b) and 416.1021(b).


State DDS’ Employee and Contractor Suitability Program (A-15-11-21180)                                  1
The function of disability determinations has remained with the States since the
1954 legislation. All 50 States, plus the District of Columbia and Puerto Rico, have
DDSs. Some States have multiple sites, for a total of 102 physical locations as of Fiscal
Year (FY) 2010. 5 As of May 13, 2011, the DDSs had 17,772 full- and part-time
employees.

DDSs are responsible for determining initial and continuing eligibility for disability claims
with respect to the case’s medical aspects. Based on the medical evidence, the
disability examiner will decide whether the individual is disabled, as defined by SSA. In
December 2010, an individual was arrested for illegally downloading the personal
information of about 15,000 people from computers belonging to private contractors
working for the New York state agency that decides some initial disability claims for
Social Security. Because of the breach of PII, SSA requested we conduct this review to
identify the risks to the Agency’s PII posed by varying suitability policies and procedures
within the States. 6

To accomplish our objectives, we reviewed 14 State DDSs. These DDSs comprised
approximately 51 percent of the nationwide disability workloads, and had approximately
8,784 full- and part-time employees as of May 13, 2011.

SUITABILITY

In October 2008, the Agency enhanced its October 2005 guidance to DDSs on
requirements for suitability programs. Suitability is a personnel/hiring concept that
refers to whether an individual’s identifiable character traits and conduct may
reasonably be expected to either interfere with, or prevent, effective performance in the
position for which he or she is being considered, or prevent effective performance of the
duties and responsibilities of the employing agency. 7

Suitability is distinguishable from a person’s ability to fulfill job qualification requirements
as measured by experience, education, knowledge, skills, and abilities. The need for
suitability involves SSA’s responsibility to safeguard its records, data, and systems, and
thereby, protect the public trust and national security interests. 8




5
 For purposes of this audit, we are reporting on 52 DDSs, 1 per state plus the District of Columbia and
Puerto Rico, regardless of how many multiple DDS sites a state may have.
6
    The term State applies to the DDS and its parent agency.
7
    POMS, DI 39567.260 DDS Suitability Program Guidance (10/02/2008).
8
    ld.


State DDS’ Employee and Contractor Suitability Program (A-15-11-21180)                                    2
SSA’s Program Operations Manual System (POMS) 9 outlines requirements for DDSs,
and the affected State parent agencies, 10 to conduct statewide criminal background
checks on all prospective full- or part-time employees and contractors, including medical
consultants. Beyond the minimum requirements, SSA gives States broad discretion in
the composition, implementation, and administration of their DDS suitability programs.
SSA recommends that the DDSs use the Agency’s suitability program as a model for
constructing and strengthening their suitability programs. According to the Agency, as
of FY 2010, 44 DDSs followed SSA policy either fully or partially 11 and 8 DDSs had not
implemented a policy. For these eight DDSs, SSA advised us that four were working
with their parent agencies to implement a policy; three were waiting for SSA
requirements through the HSPD-12 badge process; and one DDS policy prohibited a
criminal background check.




9
    Id.
10
 The parent agency is immediately above the DDS in the State hierarchy and participates in
management decisions affecting the DDS.
11
 For the States that partially implemented the policy, a policy was in place for employees but not
medical consultants.


State DDS’ Employee and Contractor Suitability Program (A-15-11-21180)                               3
                                                         Results of Review
Overall, our review determined that the Agency had a limited policy in place to
determine the suitability of DDS employees and contractors. The policy resulted in
vulnerabilities to the Agency. In addition, we determined that SSA, including its regional
offices (RO) and central office (CO), performed some oversight of the State suitability
processes. Specifically, we reviewed the suitability processes of 14 States as well as
the oversight role in all 10 ROs and the CO.

Agency Policy

Effective October 2, 2008, SSA enhanced its prior guidance establishing a minimum
requirement for DDS suitability. The guidance stated, “We require that each DDS
conduct a statewide criminal background check on all prospective full- or part-time
employees and contractors, including medical consultants. These checks should be
completed prior to authorization of systems access, but if necessary, access can be
granted first with completion of the check to follow as soon as possible.” 12 Beyond that
minimum requirement, States had broad discretion on the composition, implementation,
and administration of their DDS suitability programs.

SSA guidance recommends that States use SSA’s suitability program as a model for
their own State policies. The guidance further recommends that States include
provisions in their programs to cover such situations as the

•     emergence of information that indicates a person may not be suitable for continued
      employment; or
•     determination of whether a person should be granted a higher level of access
      because he or she is promoted (for example, a DDS may consider an upgrade
      investigation when the DDS promotes a Disability Examiner to a Disability Claims
      Supervisor). 13

State Compliance with Agency Policy

We reviewed the State policy for employees, contractors, and other individuals working
in the DDSs in 14 States to determine whether the States had complied with SSA
policy. During our review, we determined that (1) policy implementation dates varied
among States, and (2) requirements for background checks on individuals with access
to the DDSs, including employees, contractors, and other staff, varied among the
States. The following tables summarize the results of our review.



12
     POMS, DI 39567.260 Section C, DDS Suitability Program Guidance (10/02/2008).
13
     POMS, DI 39567.260 Section D(5), DDS Suitability Program Guidance (10/02/2008).


State DDS’ Employee and Contractor Suitability Program (A-15-11-21180)                      4
                 Table 1: State Suitability Policy Effective for Employees
               Timeframe State Policy Became Effective for                     Number of
                                  Employees                                     States
          Policy in place before issuance of SSA’s 2008 policy                     9
          Policy implemented for 100 percent of employees at                      1 14
          same time SSA’s policy became effective
          Policy implemented several months to almost 1 year                         3
          after SSA’s policy became effective
          No policy in place                                                         1

For the three States that were unable to implement State policy until several months to
almost a year after SSA’s policy was effective, these States had to work with their
parent agencies and other offices to receive clearance to perform these checks. These
States were unable to implement SSA’s policy until they received proper State approval.

                Table 2: State Suitability Policy Effective for Contractors
               Timeframe State Policy Became Effective for                     Number of
                                 Contractors                                    States
          Policy in place before issuance of SSA’s 2008 policy                    4
          Policy implemented several months to almost 1 year                      2
          after SSA’s policy became effective
          No policy in place                                                         5
          No contractors used by the State                                           3

The two States that were unable to implement State policy until several months to
almost 1 year after SSA’s policy was effective needed to work with their parent agencies
and other offices to receive clearance to perform these checks.

For the five States that did not have a policy requiring statewide criminal background
checks for contractors, we found the following.

•    Three did not conduct criminal background checks on their medical consultants and
     psychologists. These States completed a licensure check to ensure the medical
     consultants did not have sanctions noted on their licenses. One State’s State
     Licensing Board did not complete a criminal background check as part of the
     application process.
•    One did not have a policy in place for statewide criminal background checks for any
     contractors.
•    One did not have a policy for information technology (IT) staff contracted through the
     State’s Bureau of Contract Management, and the DDS did not review background
     check information if completed for these types of contractors.




14
  This State had policy for a State-wide criminal background checks before this time; however, it included
only a sample of new employees.


State DDS’ Employee and Contractor Suitability Program (A-15-11-21180)                                   5
               Table 3: State Suitability Policy Effective for Other DDS Staff 15
               Timeframe State Policy Became Effective for Other                  Number of
                                      DDS Staff                                    States
             Policy in place before issuance of SSA 2008 policy for                  3
             State IT staff used by the DDS
             Policy in place before issuance of SSA 2008 Policy for                   2
             volunteers used by the DDS
             No Policy in place to review suitability documentation                  1 16
             performed by temp agencies for temporary staff used by
             the DDS
             No policy in place                                                       1
             No other staff used by the State                                         8

For the one State that had no policy in place to review suitability documentation from
temporary agencies, the DDS stated that the temporary agencies were responsible for
conducting the statewide criminal background checks, but the DDS did not review the
information before employing the individual. The other State did not have a policy to
conduct criminal background checks on any individuals working in the DDS.

Suitability Documentation

We reviewed supporting documentation for a sample of employees, contractors, and
other DDS staff (if applicable) from the 14 DDSs to determine whether each State
performed suitability reviews in accordance with SSA policies. See Appendix C for our
sample methodology. Tables 4 through 6 summarize the results of our review.

                Table 4: Suitability Supporting Documentation for Employees
              Amount of Supporting Documentation Provided for                       Number of
                                   Employees                                         States
           Supporting documentation provided for entire sample                         11
           Supporting documentation provided for some of the sample                     1
           Supporting documentation not provided for any of the sample                  1
           No sample selected – no criminal background check policy                     1

The one State that provided documentation for some of the sample of employees was
unable to provide supporting documentation for one employee. This employee started
working at the DDS after SSA’s policy became effective but before the State was able to
implement its own policy. Therefore, this employee did not receive a criminal
background check. For the one State that did not provide any supporting
documentation, it was the State policy not to retain documentation of a criminal
background check past the employee’s probationary period. Therefore, we were unable
to verify the completion of a criminal background check on the sample of employees.

15
     Other DDS Staff include temporary workers, volunteers, and State IT staff.
16
  This State is also included in the three States that had a policy in place before issuance of SSA policy
for State IT staff. This State had two different types of other DDS staff, State IT staff and temporary
employees.


State DDS’ Employee and Contractor Suitability Program (A-15-11-21180)                                       6
The remaining State did not perform statewide criminal background checks for
employees; therefore, we did not select a sample to review.

            Table 5: Suitability Supporting Documentation for Contractors
             Amount of Supporting Documentation Provided for                      Number of
                                  Contractors                                      States
         Supporting documentation provided for entire sample                         3
         Supporting documentation provided for some of the sample                    3
         Supporting documentation not provided for any of the sample                 4
         No sample selected – no criminal background check policy                    1
         No contractors used by the State                                            3

For the three States that provided some supporting documentation, one State could not
locate the documentation for one contractor and the second did not review or retain the
criminal background information completed by the Contracting Bureau who originally
hired the individual. For the third State in this category, we originally selected our
sample based on the start dates of the contractors provided by the DDS. During our
site visit, the DDS informed us that two contractors actually started before 2007, and
therefore, should not have been included in our sample.

For the four States that were not able to provide supporting documentation for any of
our sample, three States did not complete criminal background checks on their medical
consultants and psychologists. These States relied on the licensure board to identify
any sanctions on the consultants’ licenses. One of these three States contracted with
psychologists for a 5-year contract. These individuals began with the DDS in 2007, and
therefore, were not subject to a criminal background check per SSA policy. Although
they were still working with the DDS, they did not have criminal background checks, and
therefore, could provide no documentation. The final State did not complete checks on
the contractors because the contracting manager followed outdated State contracting
procedures, which did not require a criminal background check.

The remaining State with no sample selected did not perform statewide criminal
background checks for contractors; therefore, we did not select a sample to review.

          Table 6: Suitability Supporting Documentation for Other DDS Staff
             Amount of Supporting Documentation Provided                         Number of
                             for Other DDS Staff                                  States
        Supporting documentation provided for entire sample                          5
        Supporting documentation not provided for any of the sample                 1 17
        No sample selected – no criminal background check policy                     1
        No other staff used by the State                                             8

The one State that did not provide supporting documentation employed staff from a
temporary agency. The temporary agency was responsible for conducting criminal
17
  This State is also included in the five States that provided supporting documentation for the entire
sample. This State had two different types of other DDS staff, State IT staff and temporary employees.
Therefore, we reviewed a sample of each type.


State DDS’ Employee and Contractor Suitability Program (A-15-11-21180)                                   7
background checks. The DDS did not verify this information before employing the
temporary employee.

The remaining State with no sample selected did not perform statewide criminal
background checks for other DDS staff; therefore, we did not select a sample to review.

Vulnerabilities Identified in SSA Policy

SSA has a responsibility to safeguard its records, data, systems, and PII, thereby
maintaining the public trust and protecting national security interests. Although SSA
expects that each DDS will maintain and administer an effective suitability program, the
Agency does not perform specific checks to ensure that the background checks are
completed appropriately at each State. During our review of the States’ policies for the
14 DDSs, we identified a number of vulnerable areas in SSA’s current policy, as
discussed below.

Contractors

SSA policy states that DDSs must perform statewide criminal background checks on
prospective contractors. 18 Policy is not clear on the definition of prospective contractors
and whether DDSs should consider a contractor prospective each time their contract is
renewed. For example, during our review, we noted one State whose contracts for all
psychologists began in 2007 and will end in 2012. Although these contractors were
working at the DDS, they had not undergone a criminal background check because they
started with the DDS in 2007, before SSA’s policy was implemented.

In addition, we noted one State that renewed contracts annually. The DDS did not
complete criminal background checks on these contractors at the time of renewal
because they began with the DDS before policy implementation. To ensure all
individuals with access to SSA’s records are suitable, policy should include language to
require criminal background checks for contractors with long-term contracts or at the
time of contract renewal.

Other Staff Besides Employees and Contractors Employed by DDSs

SSA policy requires a statewide criminal background check for all prospective full- or
part-time employees and contractors, including medical consultants. Policy does not
provide guidance on the treatment of individuals outside these categories. During our
review, we noted that several States used other types of staff, such as volunteers, IT
staff employed by the State, and temporary agency employees. For most States, these
other types of employees went through the same suitability process as employees and
contractors. However, we noted that one State relied on the temporary agency to
perform criminal background checks, and one State relied on the Bureau of Contract
Management to supply suitable staff. Neither of the DDSs reviewed criminal


18
     Op. cit. page 4.


State DDS’ Employee and Contractor Suitability Program (A-15-11-21180)                     8
background check information before employing these individuals. SSA policy should
include language to incorporate other individuals employed by the DDSs.

Employees Transferred from Other State Agencies

We also noted that three States did not perform criminal background checks on
employees who began working with another State agency before the DDS and then
transferred to the DDS. These States relied on other State agencies to complete the
criminal background checks and did not verify the information. To ensure all individuals
with access to SSA’s records are suitable, policy should include language to require
criminal background checks for all staff hired by the DDSs.

Employees, Contractors, and Other Staff Not Subject to State-wide Criminal
Background Checks

SSA policy’s requirement for statewide criminal background checks did not include a
date by which all States should have implemented the policy. According to SSA, this
was intentional. The Agency was aware that States had different State labor law cycles,
and it could have taken some States several months for the cycle to reach a point
where they could implement this requirement. Although most States had policies in
place, some States took several months to 1 year to implement policy, and some States
still had not implemented a policy requiring State-wide criminal background checks.

The policy only included a requirement for prospective employees and contractors. The
policy did not require that States conduct criminal background checks on current
employees and contractors. During our review, one State reported that per its union
contract, criminal background checks are not allowable on current employees,
regardless of suspicious activity, while another State relayed that its State law only
allowed criminal background checks for new hires as of the date of State policy.

SSA’s policy does not contain information on how often DDSs should perform criminal
background checks. During our review, we noted that this policy varied from State to
State. Seven of the States reviewed, only completed background checks at the time of
hire. The remaining States conducted criminal background checks at the time of hire,
as well as for such events as promotion, transfer, and demotion.

Since policy does not require a statewide criminal background check on current
employees or contractors, or periodic checks throughout employment, there is a large
number of individuals employed at the DDSs that were never subject to a criminal
background check. Tables 7 through 9 show the number of employees, contractors,
and other staff from the 14 DDSs reviewed who had potentially never undergone a
criminal background check while still working with the DDSs.




State DDS’ Employee and Contractor Suitability Program (A-15-11-21180)                     9
         Table 7: Employees Not Subject to a Criminal Background Check
                                                                                 Number of
                                                                                 Employees
 Employees started with the DDS after SSA’s policy was effective                    13
 (10/2/2008) but before the State implemented it (applies to three States)
 Employees were hired by DDS before SSA or State policy became                     3,125
 effective, whichever occurred first
 Employees not subject to a criminal background check because State did            1,797
 not have a policy (applies to one State)

         Table 8: Contractors Not Subject to a Criminal Background Check
                                                                                Number of
                                                                                Contractors
 Contractors started with the DDS after SSA’s policy was effective                   1
 (10/2/2008) but before the State implemented it (applies to two States)
 Contractors were contracted by DDS before SSA or State policy became               146
 effective, whichever occurred first
 Contractors not subject to a criminal background check because State did           113
 not have a policy (applies to two States)
 Unable to determine whether contractors would have been subject to a                32
 criminal background check

We could not determine whether 32 contractors were subject to criminal background
checks; 25 of these contractors were brought into the DDS from other State agencies.
We did not verify the policies regarding criminal background checks from other State
agencies. Therefore, we cannot determine whether these contractors had criminal
background checks completed. For the remaining seven contractors, based on the
information provided by the State, we could not determine the date they were subject to
a criminal background check. In this State, medical consultants were not subject to the
background checks until October 2007; however, the remaining contractors were
subject in 1999. The State did not specify which contractors on their lists were medical
consultants; therefore, we were not able to determine the date they would have been
subject to a criminal background check.

       Table 9: Other DDS Staff Not Subject to a Criminal Background Check
                                                                             Number of Other
                                                                               DDS Staff
 Other DDS staff employed by DDS before SSA or State policy                       18
 became effective, whichever occurred first
 Other DDS staff not subject to a criminal background check because                21
 State did not have a current policy (applies to one State)

All the employees, contractors, and other DDS staff outlined in Tables 7 through
9 posed a risk to SSA because they had potentially never been subject to a criminal
background check. Policy should include an appropriate date when all States must
meet the requirements of the suitability policy to ensure that individuals with access to
SSA data are suitable.



State DDS’ Employee and Contractor Suitability Program (A-15-11-21180)                         10
Agency Oversight

SSA policy did not include specific requirements regarding RO and CO oversight of the
State suitability programs. POMS 19 requires that DDSs complete a self-review each
FY. One question on this checklist asks the DDS whether it conducts a statewide
criminal background check on all prospective new full- or part-time employees and
contractors, including medical consultants. As required by SSA policy, the DDS must
establish a Corrective Action Plan/Risk Assessment based on the results of each review
to address any weaknesses. The RO is responsible for following up with the DDS to
ensure the DDS addressed all weaknesses. The ROs are also responsible for
completing a review of each DDS at least once every 5 years. Part of that review
includes the self-review checklist the DDSs must complete. There is no requirement for
the Agency to conduct tests on the States’ suitability processes to ensure the checks
are conducted properly.

We obtained the most recent 5-year review for each DDS completed by the RO. The
report has a signature page with three lines, (1) the Center for Security and Integrity
reviewer who completes the review, (2) management signature to certify that “Security
controls are sufficient to warrant continuing use of SSA Systems,” and (3) management
signature to certify that “DDS personnel are aware of the importance of the security
program.” We noted that several of the reports did not contain management’s signature
to certify completion of the review. Additionally, we noted that one region we reviewed
did not complete a review for each DDS within the 5 years. This region stated that
outside auditors completed a review on one DDS the year before the scheduled review,
and therefore, they did not believe another review was necessary. According to the
Office of Disability Determinations (ODD), a DDS may be exempt from completing its
annual review if an audit was conducted on that DDS; however, this exemption does not
extend to the 5-year review completed by the RO. The Agency should ensure that all
ROs are aware that audits do not exempt the RO from completing its review.

SSA policy also stated that the CO is responsible for providing oversight to the DDS
security program and monitoring the review program and corrective actions. There is
no requirement in the guidance specific to the oversight of suitability. The Agency
should require the ROs to review a sample of suitability determinations as part of the
5-year review process.

RO Oversight

We conducted site visits at SSA’s 10 ROs to gain an understanding of the oversight
procedures the ROs had in place regarding suitability programs at individual DDSs. We
noted that most ROs stated that they would review the questions answered by the
DDSs on the self-review checklist and work with the DDS to resolve any issues.
Beyond that, the ROs would leave the suitability determinations to the DDSs.



19
     POMS, DI 39567.345, DDS Security Compliance and Monitoring (11/08/2010).


State DDS’ Employee and Contractor Suitability Program (A-15-11-21180)                   11
We identified three regions with a DDS that did not complete statewide criminal
background checks as described in the question on the self-review checklist. We
inquired whether these ROs were adhering to SSA policy by following up with the DDSs
to ensure the weaknesses were addressed. In two instances, the DDSs conducted
criminal background checks on employees, but not on the medical consultants. One
RO replied that the DDS had no control over the issue because State personnel
procedures did not provide for criminal background checks on contractors. Another RO
indicated it was aware that ODD was preparing sample suitability language for inclusion
in any new medical consultant contracts. ODD provided the sample language to the RO
on April 27, 2011 with the intention of the RO forwarding it to the DDS to have the DDS
work with its human resources and contracting departments to incorporate the language
into new contracts. In another instance, the DDS did not conduct criminal background
checks on any individuals working in the DDS. Their respective region stated it had
discussed the issue with the DDS on several occasions, but the DDS had several
barriers to allowing criminal background checks. These barriers included receiving
approval from their State Personnel Board and possible issues regarding labor relations
and funding.

CO Oversight

We met with ODD to discuss the CO oversight role of the DDS’ suitability programs.
According to ODD, the ROs conduct the day-to-day monitoring. The CO served as a
coordination function and a link for the ROs to information throughout the Agency. ODD
was aware of the DDSs that complied with SSA policy and which DDSs were not
adhering to the policy. ODD stated that they are working to provide more guidance to
the DDSs to ensure the security of SSA information. ODD also stated that Federal
regulations 20 limit the amount of guidance they can require of DDSs.




20
     Op. cit. page 1.


State DDS’ Employee and Contractor Suitability Program (A-15-11-21180)               12
                                                   Conclusions and
                                                  Recommendations
Although the Agency had a limited policy in place that required a statewide criminal
background check, we noted a number of vulnerable areas in the policy that could pose
a risk to SSA data and systems. State policy regarding suitability determinations for
employees, contractors, and other DDS staff varied widely from State to State. Some
States had yet to implement a policy requiring statewide criminal background checks.
Additionally, we found that although most States had a policy in place for prospective
employees, the policy did not require criminal background checks for current
employees. Therefore, we noted a large number of individuals employed at the DDSs
were not subject to a criminal background check. Due to the sensitive nature of SSA’s
systems, it is imperative that individuals accessing sensitive information undergo some
assessment of their suitability.

We also found that SSA performed some oversight of the State suitability processes.
Besides reviewing the self-reviews completed by the DDSs, SSA’s ROs stated they
would leave the suitability determinations to the DDSs. According to ODD, the ROs are
responsible for conducting the day-to-day monitoring of the DDSs. The CO served as a
coordination function and a link for the ROs to information throughout the Agency.
Because of the vulnerabilities identified with SSA’s policy, the ROs and CO should have
more of an oversight role to ensure that all DDSs are completing criminal background
checks according to Agency policy.

Internal controls serve as the first line of defense in safeguarding assets and preventing
and detecting errors and fraud. Internal controls help government program managers
achieve desired results through effective stewardship of public resources. Although a
suitability program is one type of internal control that can help mitigate the risk of
inappropriate access to SSA’s PII, it cannot guarantee the identification of all unsuitable
individuals. Internal controls provide reasonable assurance, not absolute assurance.
However, a strong and consistent suitability program will minimize the risk of unsuitable
individuals accessing SSA PII.

The Agency should strengthen its policy to ensure that all individuals with access to
SSA’s records, both current and prospective, are suitable. Therefore, we recommend
SSA:

1. Require all individuals with access to SSA systems and data to have an appropriate
   suitability determination consistent with the requirements of SSA’s suitability
   program.
2. Require periodic checks on all individuals with access to SSA systems.
3. Establish a date by which States must adhere to the suitability policy.



State DDS’ Employee and Contractor Suitability Program (A-15-11-21180)                    13
4. Remove access to SSA data for any individual not having the appropriate suitability
   determination by the established date.
5. Ensure that ROs are certifying the completion of the 5-year reviews and completing
   the reviews in accordance with policy.

AGENCY COMMENTS
SSA will take action to address all of our recommendations. See Appendix E for the full
text of the Agency’s comments.




State DDS’ Employee and Contractor Suitability Program (A-15-11-21180)               14
                                           Appendices




State DDS’ Employee and Contractor Suitability Program (A-15-11-21180)
                                                                         Appendix A

Acronyms
 C.F.R.            Code of Federal Regulations
 CO                Central Office
 DC                District of Columbia
 DDS               Disability Determination Service
 FY                Fiscal Year
 IT                Information Technology
 ODD               Office of Disability Determinations
 OIG               Office of the Inspector General
 PII               Personally Identifiable Information
 POMS              Program Operations Manual System
 Pub. L. No.       Public Law Number
 RO                Regional Office
 SSA               Social Security Administration




State DDS’ Employee and Contractor Suitability Program (A-15-11-21180)
                                                                         Appendix B

Scope and Methodology
The objectives of our review were to determine whether the Social Security
Administration (SSA) (1) had a policy in place to determine the suitability of disability
determination services’ (DDS) employees and contractors, and (2) performed oversight
reviews of the DDS’ suitability process. To accomplish these objectives, we:

•   Reviewed applicable Federal laws and regulations as well as SSA’s policies and
    procedures pertaining to DDS suitability programs.
•   Obtained employee listings from the Office of Telecommunications and Systems
    Operations for the 14 State DDSs as of January 10, 2011.
•   Requested State suitability policy and classifications (that is, contractor, employee,
    other) for employee listings from each of the 14 State DDSs.
•   Reviewed State suitability guidance for 14 States.
•   Conducted site visits to DDSs in 14 States to gain an understanding of the suitability
    and self-review checklist processes.
•   Conducted site visits to the 10 regional offices (RO) to gain an understanding of the
    oversight procedures and reviews of the DDSs.
•   Selected a sample of employees, contractors, and other DDS staff from each of the
    14 State DDSs who began with the DDS after SSA’s policy became effective,
    October 2, 2008. For our samples, we verified suitability documentation to ensure a
    criminal background check was completed.
•   Interviewed Office of Disability Determinations staff to gain an understanding of
    Central Office’s role in the DDS’ suitability process.

We determined that the computerized data used during our review were sufficiently
reliable given our objectives, and the intended use of the data should not lead to
incorrect or unintentional conclusions.

We performed our fieldwork in 14 State DDSs and 10 ROs in February and March 2011.
We finalized our analysis at Headquarters from April through May 2011. We conducted
this performance audit in accordance with generally accepted government auditing
standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for findings and
conclusions based on our audit objectives. We believe the evidence obtained provides
a reasonable basis for our findings and conclusion based on our audit objectives.




State DDS’ Employee and Contractor Suitability Program (A-15-11-21180)
                                                                         Appendix C

Sampling Methodology
Below are the steps we followed to obtain samples of employees, contractors, and other
disability determination services (DDS) staff for testing from each of the 14 DDSs:

•   Obtained a listing of employees for each of the 14 DDSs from the Office of
    Telecommunications and Systems Operations.
•   Sent the listings to each State DDS administrator as part of our initial request for
    information. The DDS administrators were asked to note whether the individuals
    were employees, contractors, or other staff.
•   Grouped the completed listings into three categories: employees, contractors, and
    other DDS staff.
•   Identified all the employees, contractors, and other staff who began with the DDS on
    or after October 2, 2008. We selected this date because it was the date SSA’s new
    policy became effective.
•   Selected a random sample of five from each category. If there were not five in a
    particular category, we completed a 100-percent.




State DDS’ Employee and Contractor Suitability Program (A-15-11-21180)
                                                                                         Appendix D

DDS Suitability Status                          1




    Suitability Program in            Suitability Program Performed on                   No Suitability
     Place According to               Employees with the Exception of                     Program in
      POMS 39567.260 2                      Medical Consultants 3                           Place 4

                 41                                          3                                      8




1
 For purposes of this audit, we are reporting on 52 DDSs, 1 per state plus the District of Columbia and
Puerto Rico, regardless of how many multiple DDS sites a state may have.
2
 The DDSs adhere to their state suitability programs, which include statewide criminal background
checks.
3
    For medical consultants, the DDS verifies medical licensure status in lieu of other criteria.
4
 Four of these DDSs were working with their parent agencies to establish a program, three DDSs were
waiting on SSA requirements of the Homeland Security Presidential Directive 12 (HSPD-12), and one
DDS had a state policy that prohibited a criminal background check.


State DDS’ Employee and Contractor Suitability Program (A-15-11-21180)
                                                                         Appendix E

Agency Comments




State DDS’ Employee and Contractor Suitability Program (A-15-11-21180)
                                       SOCIAL SECURITY

MEMORANDUM


Date:   November 23, 2011                                                       Refer To: S1J-3

To:     Patrick P. O’Carroll, Jr.
        Inspector General

From:   Dean S. Landis /s/
        Deputy Chief of Staff

Subject: Office of the Inspector General Draft Report, “State Disability Determination Services’
        Employee and Contractor Suitability Program” (A-15-11-21180)--INFORMATION


        Thank you for the opportunity to review the draft report. Please see our attached comments.

        Please let me know if we can be of further assistance. You may direct inquiries to
        Teresa Rojas, at (410) 966-7284.

        Attachment




        State DDS’ Employee and Contractor Suitability Program (A-15-11-21180)                     E-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL DRAFT REPORT,
“STATE DISABILITY DETERMINATION SERVICES’ EMPLOYEE AND
CONTRACTOR SUITABILITY PROGRAM” (A-15-11-21180)


GENERAL COMMENTS

Protecting disability applicants’ personally identifiable information (PII) is very important to us
and we take this responsibility extremely seriously. We require each Disability Determination
Services (DDS) office to maintain and administer an effective suitability program. As a
minimum requirement, States must conduct a criminal background check on all prospective full
or part-time employees and contractors. We recommend States use our suitability program as a
model, and we will continue to work with our DDS partners to minimize the risk of improper use
of disability applicants’ PII.

RESPONSE TO RECOMMENDATIONS

Recommendation 1

Require all individuals with access to SSA systems and data to have an appropriate suitability
determination consistent with the requirements of SSA’s suitability program.

Response

We will work closely with the State DDSs to develop a plan to implement the recommendation.

Recommendation 2

Require periodic checks on all individuals with access to SSA systems.

Response

We will require the same periodic checks from the State DDSs that we require of others with
access to our systems.

Recommendation 3

Establish a date by which States must adhere to the suitability policy.

Response

We are developing an implementation plan based on State readiness.




State DDS’ Employee and Contractor Suitability Program (A-15-11-21180)                       E-2
Recommendation 4

Remove access to SSA data for any individual not having the appropriate suitability
determination by the established date.

Response

We will establish a date based on resources needed for full implementation.

Recommendation 5

Ensure that Regional Offices (RO) are certifying the completion of the 5-year reviews and
completing the reviews in accordance with policy.

Response

We will issue a policy reminder to the ROs.




State DDS’ Employee and Contractor Suitability Program (A-15-11-21180)                      E-3
                                                                          Appendix F

OIG Contacts and Staff Acknowledgments
OIG Contacts
   Victoria Vetter, Director, Financial Audit Division

Acknowledgments
In addition to those named above:

   Kelly Stankus, Senior Auditor
   Lori Lee, Auditor
   Brennan Kraje, Statistician

For additional copies of this report, please visit our Website at http://oig.ssa.gov/ or
contact the Office of the Inspector General’s Public Affairs Staff at (410) 965-4518.
Refer to Common Identification Number A-15-11-21180.




State DDS’ Employee and Contractor Suitability Program (A-15-11-21180)
                            DISTRIBUTION SCHEDULE

Commissioner of Social Security
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Committee on the Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Oversight and Government
Reform
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security Pensions
and Family Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                         Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations
(OI), Office of the Counsel to the Inspector General (OCIG), Office of External Relations (OER), and Office of
Technology and Resource Management (OTRM). To ensure compliance with policies and procedures, internal
controls, and professional standards, the OIG also has a comprehensive Professional Responsibility and Quality
Assurance program.
                                                  Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues
of concern to SSA, Congress, and the general public.
                                              Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State,
and local law enforcement agencies.
                            Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative material.
Also, OCIG administers the Civil Monetary Penalty program.
                                        Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases
and in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for
those seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal
and external organizations, and responds to Congressional correspondence.
                           Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates
OIG’s budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the
focal point for OIG’s strategic planning function, and the development and monitoring of performance
measures. In addition, OTRM receives and assigns for action allegations of criminal and administrative
violations of Social Security laws, identifies fugitives receiving benefit payments from SSA, and provides
technological assistance to investigations.
